         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       EPA Practices for Identifying and
       Inventorying Hazardous Sites
       Could Assist Similar
       Department of the Interior Efforts
       Report No. 2005-P-00020

       August 22, 2005
Report Contributors:	               Erin Barnes-Weaver
                                    Jennifer Dwyer
                                    Steven Textoris
                                    Carolyn Copper




Abbreviations

CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS      Comprehensive Environmental Response, Compensation, and Liability
             Information System
DOI          Department of the Interior
EPA          Environmental Protection Agency
HRS          Hazard Ranking System
IGCE         Independent Government Cost Estimate
NPL          National Priorities List
NFRAP        No Further Remedial Action Planned
OIG          Office of Inspector General
PA           Preliminary Assessment
RCRA         Resource Conservation and Recovery Act
RI/FS        Remedial Investigation/Feasibility Study
SI           Site Inspection
                        U.S. Environmental Protection Agency                                                2005-P-00020

                        Office of Inspector General                                                        August 22, 2005





                        At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review             EPA Practices for Identifying and Inventorying Hazardous Sites
Recent audits criticized the       Could Assist Similar Department of the Interior Efforts
Department of the Interior for
weaknesses in its controls over     What We Found
environmental liabilities
resulting from hazardous           EPA has several mechanisms in place to discover new sites, including having
waste sites. For example, the      strong relationships with State offices to obtain new site information. EPA
Department has not developed       screens sites before including them in its inventory or priority list of sites requiring
policies or procedures for         further action. After identifying a site, EPA performs a preliminary assessment to
estimating environmental           determine the eligibility for a response action and to prioritize sites for further
liabilities, and does not have a   action. EPA also offers automated screening tools to assist regional staff in
prioritized list of cleanup        assessing and inspecting sites. EPA’s Hazard Ranking System scores sites based
activities. The Department         on the likelihood of release or potential release, the characteristics of site waste,
initiated an effort to develop a   and the people or sensitive environments affected by the release. Following
database to capture uniform        selection of the cleanup remedy, EPA uses a panel of experts to evaluate risks and
information for financial          establish funding priorities for new cleanups. EPA estimates changing project
reporting purposes.                costs throughout the process of prioritizing sites, and balances cost as one of
                                   several criteria to choose suitable cleanup options.
The Department of the Interior
Inspector General initiated an     The Department of the Interior, as a Federal land manager responsible for
audit to evaluate the              addressing hazardous sites on its lands, could apply several practices used by EPA
Department’s processes to          to ensure that the Department addresses its highest priority sites first, including:
identify, track, and prioritize
potential hazardous waste          Site Discovery
sites. Since, the
Environmental Protection           •	   Consult existing site inventories and work with States, Tribes, and
Agency (EPA) has over                   communities to obtain information to identify potential sites.
20 years experience with           •	   Develop and apply user-friendly checklists and templates to gather initial site
information systems and                 information and generate consistency in reports by bureau field staff.
processes to identify, assess,     •	   Consult upcoming EPA guidance on preliminary assessments and site
prioritize, and cost estimate           inspections at Federal facilities, as well as a web-based hazardous waste
Superfund hazardous waste               compliance assistance center.
sites, we worked with the
Interior Department’s              Site Assessment and Prioritization
Inspector General to identify      •	   Develop and apply automated tools to quickly assess sites and provide
relevant promising practices            uniformity. Consider EPA’s automated tools as a source of ideas.
for the Department to consider     •	   Develop a risk-based prioritization method that ranks health risks and
to improve its processes.               considers land uses, ecological risks, and tribal factors.
For further information,
                                   •	   Develop a tracking mechanism for sites the Department sets aside as not
contact our Office of                   requiring cleanup attention, and work with States, Tribes, and communities to
Congressional and Public                stay aware of changing site conditions that warrant reprioritization.
Liaison at (202) 566-2391.
                                   Cost Estimating
To view the full report,
click on the following link:
                                   •	   Create a web-based “cost estimating toolbox” as a one-stop resource for
                                        bureau field staff to document cost assumptions, and include EPA’s sources
www.epa.gov/oig/reports/2005/           of information on the costs associated with mining sites.
20050822-2005-P-00020.pdf          •	   Frequently reevaluate and adjust cost estimates throughout cleanups.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL




MEMORANDUM

SUBJECT:              EPA Practices for Identifying and Inventorying Hazardous Sites
                      Could Assist Similar Department of the Interior Efforts
                      Report No. 2005-P-00020

TO:                   Thomas P. Dunne
                      Acting Assistant Administrator
                      Office of Solid Waste and Emergency Response


This memorandum transmits a final evaluation report entitled EPA Practices for Identifying and
Inventorying Hazardous Sites Could Assist Similar Department of the Interior Efforts conducted
by the Office of Inspector General (OIG) of the United States Environmental Protection Agency
(EPA). We conducted this work as part of a joint effort with the Department of the Interior
(DOI) OIG. DOI-OIG examined whether the Department has effective processes to identify and
prioritize hazardous waste sites on DOI land. Given EPA’s experience with related activities
through the Agency’s implementation of Superfund, we examined EPA’s process for identifying,
prioritizing, and tracking hazardous waste sites. Further, we identified several EPA practices
that could benefit DOI’s effort to inventory and assess hazardous sites.

We appreciate the cooperation and assistance provided by your staff in completing this work.
Our final report incorporates the majority of changes suggested in your January 27, 2005 official
comments. If you or your staff has any questions regarding this report, please contact me at
(202) 566-0847, or Kwai Chan, Assistant Inspector General for Program Evaluation, at
(202) 566-0827.


                                                            Nikki L. Tinsley

Attachment

cc: 	   Johnsie Webster, Audit Followup Coordinator, OSWER
        Kwai Chan, Assistant Inspector General for Program Evaluation, OIG
Melissa Heist, Assistant Inspector General for Audit, OIG
Eileen McMahon, Assistant Inspector General for Congressional and Public
       Liaison, OIG
Michael Binder, Acting Assistant Inspector General for Planning, Analysis, and
       Results, OIG
Elizabeth Grossman, Deputy Assistant Inspector General for Program Evaluation,
       OIG
Carolyn Copper, Director for Program Evaluation, OIG
                                       Table of Contents 

At a Glance

 Introduction ..................................................................................................................                 1

    Background ....................................................................................................................             1 


    Purpose          .......................................................................................................................    1




 EPA’s Site Discovery, Assessment and Prioritization,
 and Cost Estimating Processes Under Superfund ..................................                                                               3

    Site Discovery ................................................................................................................             3 


    Site Assessment and Prioritization ..............................................................................                            4


    Cost Estimating..............................................................................................................               6




 Promising Practices                        ...............................................................................................      8

    Promising Practices for the Department of the Interior .............................................
                                       8


 Appendices

    A       Scope and Methodology.......................................................................................                       11 


    B       EPA’s Site Discovery Process .............................................................................                         14 


    C       EPA’s Site Assessment and Prioritization Process...........................................                                        22 


    D       EPA’s Cost Estimating Process...........................................................................                           32 


    E       Distribution ............................................................................................................          36

                                   Introduction
Background
    Citizen concern over the extent of abandoned hazardous waste sites led Congress to pass
    the Comprehensive Environmental Response, Compensation, and Liability Act
    (CERCLA, or “Superfund”) in 1980 to locate, investigate, and clean up the worst sites
    nationwide. The Environmental Protection Agency (EPA) has over 20 years experience
    with information systems and processes to identify, assess, prioritize, and estimate costs
    of hazardous waste sites through the Agency’s implementation of the Superfund program.

    As part of accomplishing its objectives, EPA coordinates with other Federal land
    managers, such as the Department of the Interior (DOI). DOI manages one-fifth of the
    land mass in the United States, and DOI’s stewardship responsibilities include
    inventorying and assessing sites on its land that pose threats to human populations,
    wildlife, and sensitive environments. Recent financial audits criticized DOI for
    weaknesses in its controls over environmental liabilities resulting from hazardous waste
    sites. DOI’s Office of Inspector General (OIG) initiated an audit of DOI’s efforts to
    identify, track, and prioritize hazardous sites on its lands, and reviewed DOI’s efforts to
    develop a database for reporting financial liabilities.

    Given the maturity of EPA’s hazardous waste program and the Agency’s experience and
    lessons learned, we worked jointly with DOI-OIG to review and summarize EPA’s
    Superfund process and identify promising practices for DOI related to site discovery,
    assessment and prioritization, and cost estimating. While DOI does not seek to create its
    own Superfund program, similarities exist between EPA’s process of designating priority
    sites for Federal action and the processes DOI should use to identify, assess, and
    prioritize hazardous sites on its land. Like in EPA Regions, DOI field staff conduct
    initial site activities and prepare initial cost estimates.

Purpose

    DOI-OIG’s objective asked, “Does the Department have effective processes to identify,
    track, and prioritize hazardous sites?” EPA-OIG’s objective under this joint effort asked,
    “What is EPA’s process for identifying, prioritizing, and tracking hazardous waste sites,
    and what practices do EPA staff apply that could benefit DOI’s effort to inventory
    hazardous sites?”

    The body of the report contains summary information on EPA practices, as well as
    promising practices that DOI can use. The flowchart on page 2 depicts EPA’s Superfund
    process as well as the scope of our evaluation, and Appendix A provides additional
    details on our scope and methodology. Appendices B through D provide further details
    on EPA’s process, and include various website links that DOI and others may find useful.



                                              1

2

 EPA’s Site Discovery, Assessment and Prioritization,
  and Cost Estimating Processes Under Superfund
Site Discovery
     The core of EPA’s Superfund process includes a system of prioritization that allows EPA
     to address the most dangerous sites and releases. Identifying abandoned or uncontrolled
     hazardous waste sites represents the first step in the process. EPA identifies sites through
     a variety of methods, including reviewing information provided by concerned citizens
     and records maintained by State and local agencies. States usually discover and report
     new sites to EPA. EPA regional staff conducts prescreening, often in conjunction with a
     State agency, to verify the presence of hazardous substances and evaluate whether the site
     falls under an existing EPA or State program. Citizens interested in referring a site may
     submit a formal petition available on EPA’s website. Regional Remedial Decision
     Teams meet monthly to discuss emergency removal sites, and the monthly discussions
     often include new site information.

     Regions screen new sites to assure that they place only appropriate sites into the
     Comprehensive Environmental Response, Compensation, and Liability Information
     System (CERCLIS), the Agency's database of sites that may require Federal cleanup
     action under Superfund. Pre-CERCLIS screening varies among Regions, but typically
     involves reviewing existing facility files at State agencies or county health departments,
     and conducting site visits to visually determine the proximity of sites to residential
     population centers and a site’s draining, fencing, and unique characteristics. Pre-
     CERCLIS screening helps determine whether a site warrants evaluation through the site
     assessment and priority listing process. While CERCLIS contains approximately 50,000
     sites, roughly 1,500 appear on EPA’s priority list for Superfund action. CERCLIS
     generates a one-page decision form that regional reviewers sign, date, and file.

     For Federal facilities, site discovery represents the date EPA formally adds the site to the
     Federal Agency Hazardous Waste Compliance Docket indicating the site requires Federal
     involvement. To document new Federal facility site information, Regions maintain pre-
     remedial file rooms that house CERCLIS decision forms, assessments, and other
     documents submitted by Federal facilities, such as required Resource Conservation and
     Recovery Act (RCRA) release notification forms for those agencies that generate,
     transport, treat, store, or dispose of hazardous waste.

     While EPA continues to discover new sites, its heavy reliance on States for site discovery
     information could lead to “blind spots.” To account for this limitation, EPA applies
     innovative target- and industry-based approaches to more proactively identify potential
     sites, such as by examining ground water sources and industrial sectors.

     See Appendix B for more information on site discovery.



                                              3

Site Assessment and Prioritization
     When EPA identifies a site, it performs a preliminary assessment to distinguish between
     sites that pose little or no threat to human health and the environment and those that
     require further investigation. Preliminary assessments (PAs) and site inspections (SIs)
     identify sites qualified to enter the priority listing process. EPA scores sites for priority
     listing based on the likelihood of release or potential release, the characteristics of site
     waste, and the people or sensitive environments affected by the release. Once EPA
     designates a site as a priority for Federal action and funding, EPA conducts a remedial
     investigation to determine the nature and extent of contamination through sampling
     analysis and risk assessment. Specifically:

        •	 The PA represents the first phase of the cleanup process following site discovery.
           Regions should attempt to complete PAs at non-Federal facility sites within 1 year
           of site discovery. Federal facility sites listed on EPA’s Federal Agency
           Hazardous Waste Compliance Docket must complete a PA within a “reasonable
           schedule” and submit the PA to EPA for review. While EPA requires certain
           information to complete a PA, the Agency recognizes the need for flexibility to
           tailor information gathering to site-specific needs.

        •	 EPA’s determinations often require a more detailed SI. Investigators conducting
           SIs typically collect samples to determine the presence of hazardous substances.

     EPA encourages Regions to combine PA and SI activities, or conduct integrated
     assessments, to reduce costs and repetitive tasks. To assist other Federal agencies, EPA
     plans to issue succinct Federal facility PA and SI summary guides in early 2005, and
     launch a web-based Federal facilities compliance assistance center on hazardous site
     cleanup. While the PA and SI guides will not replace specific statutory requirements,
     they could serve as one-stop guides to assist other Federal agencies and help focus their
     site activities.

     The PA/SI process identifies sites qualified to enter the priority listing process and
     enables EPA to gather data needed to score the site according to the Hazard Ranking
     System (HRS). The HRS is a numerically-based screening system to assess the relative
     potential of sites to pose a threat to human health or the environment. Through HRS
     screening, EPA scores sites from 0 to 100 based on the likelihood that a site has released
     or has the potential to release contaminants into the environment, the characteristics of
     the waste, and the people or sensitive environments affected by the release. Sites with an
     HRS score of 28.5 or greater are eligible for EPA’s priority list of sites requiring action.

     EPA scores four pathways under the HRS: groundwater; surface water; soil exposure;
     and air migration. Site teams may use electronic scoring systems that provide user-
     friendly methods of documenting scores, minimizing mathematical scoring errors, and
     facilitating decision-making.




                                               4

Once EPA designates a site as a priority for Federal action and funding, EPA conducts a
Remedial Investigation and Feasibility Study (RI/FS) to determine the nature and extent
of contamination through site characterization and risk assessment, and to determine
cleanup options. The RI serves as the mechanism for collecting data to:

   •	   Characterize site conditions;
   •	   Determine the nature of the waste;
   •	   Assess risk to human health and the environment; and
   •	   Conduct testing to evaluate the potential performance and cost of the treatment
        technologies under consideration.

The FS serves as the mechanism for the development, screening, and detailed evaluation
of alternative cleanup actions. EPA conducts the RI/FS process concurrently – RI data
influence the development of cleanup alternatives in the FS, which in turn affects the
scope of additional studies and field investigations. According to EPA, this phased
approach encourages the continual scoping of site characterization, minimizes the
collection of unnecessary data, and maximizes data quality. EPA requires a baseline risk
assessment for all listed sites that identifies the existing or potential risks that sites may
pose to human health and the environment. Because the baseline risk assessment
identifies the primary health and environmental threats at a site, it also provides valuable
input to the development and evaluation of alternatives during the FS.

Once EPA develops potential cleanup alternatives, the Agency screens certain options to
reduce the number of alternatives for analysis. EPA evaluates cleanup alternatives with
respect to nine criteria. EPA considers the first two criteria as “threshold” criteria; the
next five as “balancing” criteria; and the last two as “modifying” criteria. Specifically:

                        Nine Criteria for Evaluating Cleanup Alternatives

 Threshold         1. Overall protection of human health and the environment
 Criteria          2. Compliance with applicable or relevant and appropriate requirements

 Balancing         3.   Long-term effectiveness and permanence
 Criteria          4.   Reduction of toxicity, mobility, or volume
                   5.   Short-term effectiveness
                   6.   Implementability
                   7.   Cost

 Modifying         8. State acceptance
 Criteria          9. Community acceptance



EPA analyzes cleanup alternatives individually against each criterion and then compares
each alternative against the others to determine each alternative’s strengths and
weaknesses. After EPA selects a cleanup option for sites listed in the Superfund National
Priorities List (NPL), EPA’s National Risk-Based Priority Panel evaluates the risk posed
at listed sites to establish funding priorities for new cleanups. The Priority Panel applies



                                            5
     five criteria and associated weighting factors to classify threats at a site and to compare
     sites based on common criteria. The five criteria are:

           Five Criteria for Classifying Threats
      1.   Risks to human population exposed
      2.   Contaminant stability
      3.   Contaminant characteristics
      4.   Threat to a significant environment
      5.   Program management considerations



     EPA also uses its National Remedy Review Board, comprised of Headquarters and
     regional staff, to review cleanup options to ensure consistency with hazardous waste
     regulations.

     See Appendix C for more information on site assessment and prioritization.


Cost Estimating
     Recognizing that unique and changing site circumstances require flexibility in estimating
     costs for cleanup, EPA estimates costs throughout the cleanup process. Very little cost
     estimating occurs during the site discovery phase; rather, EPA’s cost estimating process
     begins during the RI/FS phase, after EPA adds a site to its prioritized list for action but
     prior to actual cleanup. For most cost estimates developed during this phase, EPA relies
     on anecdotal and empirical data from past sites. Regional project managers do not
     document historic project costs; rather, they estimate initial costs and ask other site teams
     about their cost experiences.

     When selecting the most suitable cleanup option, EPA uses screening-level cost estimates
     to screen out disproportionately expensive alternatives. The screening process evaluates
     cleanup alternatives with respect to their effectiveness, implementability, and cost; EPA
     does not carry forward higher cost alternatives. Cost functions as one of five “balancing”
     criteria used to assess cleanup alternatives. While EPA balances the reasonableness of
     the cost when evaluating cleanup options, cost does not predominate over other factors,
     such as long-term reliability. EPA’s National Remedy Review Board helps to control
     response costs and promote nationally consistent and cost-effective cleanup decisions.
     This Board reviews proposed cleanup actions expected to cost more than $30 million
     ($75 million for Department of Energy sites with radioactive waste as the primary
     contaminant). The Agency estimates a +50% to -30% accuracy rate for cost estimates
     performed during EPA’s detailed analysis of cleanup alternatives. Once EPA completes
     the final cleanup design, cost estimate accuracy narrows to a +15% to -10% range, as
     costs still change along the tail end of the process.




                                                   6

When estimating the costs of cleanup options, EPA estimates technical and contractor
costs, and also estimates the construction costs necessary to implement the selected
cleanup option.

•	 Technical and contractor costs: First, EPA estimates the costs of technical support
   through an Independent Government Cost Estimate (IGCE) conducted in-house by
   EPA staff for each work assignment at a site. Work assignments represent a specific
   step, or several steps, in EPA’s site prioritization process, such as PAs and SIs
   following site discovery, or work assignments pertaining to actual cleanups. The
   IGCE should represent a “fair and reasonable” cost of doing the work, and the IGCE
   provides the work assignment manager with information about how much it will cost
   for a contractor to complete a cleanup activity. Since most EPA Regions lack
   in-house cost estimators, EPA issued a memorandum in June 2004 to assist work
   assignment managers in the preparation of IGCEs. EPA also provides regional staff
   an Internet-based “Cost Estimating Toolbox” that includes guidance documents and
   worksheets to help project managers prepare site-specific IGCEs and document
   assumptions made in the preparation of cost estimates.

•	 Construction costs: EPA conducts the second type of cost estimate after the Agency
   selects a cleanup option that meets statutory and regulatory requirements. EPA uses
   outside contractors to prepare detailed estimates of the cost to construct the selected
   cleanup action. Contractors base construction cost estimates on the type and
   quantities of labor, equipment, and materials required to perform the work. EPA
   recommends that its project managers obtain third-party review of construction cost
   estimates prior to advertising for bids. EPA documents each cost estimate for the
   different cleanup phases in CERCLIS. EPA participates in an interagency cost
   estimating workgroup comprised of other Federal agencies that, with the exception of
   EPA, have in-house cost estimating expertise.

See Appendix D for more information on cost estimating.




                                        7

                               Promising Practices
Promising Practices for the Department of the Interior
Based on DOI-OIG’s audit findings and its assessment of DOI’s capacity to implement EPA’s
promising practices, we identified the following practical improvements for DOI’s effort to
inventory hazardous waste sites. The tables below show DOI-OIG audit findings and our
observations on areas for improvement on site discovery, site assessment and prioritization, and
cost estimating.


Site              DOI-OIG Audit Finding:
Discovery
                  DOI does not have a proactive process to identify hazardous waste sites. Audit work
                  conducted by the DOI-OIG team found that three of four bureaus lacked a proactive
                  site identification program and often only recorded sites after the public identified
                  them.
                  Promising Practices:
                  9   DOI should examine existing site inventories and work with States, Tribes, and
                      communities to obtain information to identify potential sites. Also, existing DOI
                      inspection programs (e.g., oil and gas; mining; natural resource damage
                      assessments) can likely generate new site information. Working with States and
                      communities would ensure that DOI utilizes local individuals who know the
                      contamination problems and geography of an area. DOI staff should consider
                      talking to community members – perhaps former employees of industries unique
                      to certain areas – who may have information about potential sites.
                  9   DOI should develop and apply user-friendly checklists and templates to gather
                      initial site information and generate consistency among field staff. DOI should
                      consider EPA’s checklists and templates as a source of ideas for developing its
                      own forms. Samples of EPA templates include Internet-based public petitions for
                      new site information, and site screening checklists and decision forms.
                  9   DOI should examine upcoming EPA guidance, including succinct guides on PAs
                      and SIs, and a web-based hazardous waste compliance assistance center for
                      Federal facilities, as DOI develops its own procedures to ensure the procedures
                      meet minimum requirements for PAs and SIs at Federal facilities.
                      See http://www.epa.gov/compliance/about/offices/ffeo.html.




                                                  8

Site             DOI-OIG Audit Finding:
Assessment       DOI does not have a proactive process to evaluate the risks posed by hazardous
and              waste sites to human health, wildlife, and the environment. The Department does not
Prioritization   prioritize and rank all of its hazardous waste sites. The four DOI bureaus audited
                 maintain some information regarding prioritization of hazardous waste sites on bureau
                 land, but the information is not complete or comparable. The DOI-OIG team found
                 that bureaus developed varying methods for establishing priorities and making funding
                 decisions for contaminated site mitigation.
                 Promising Practices:
                 9   DOI should develop and apply easy-to-follow automated tools to quickly assess
                     potential sites and provide uniformity across bureaus. DOI should consider
                     EPA’s automated tools as a source of ideas. EPA’s automated tools include:
                     •    HRS Superscreen – Allows users to enter and evaluate site-specific
                          information, including sampling data, waste quantities, physical parameters,
                          and target data; enter descriptive narrative text and reference citations; and
                          select specific HRS factor values.
                     •    HRS Quickscore – Provides users pathway and site score calculations;
                          HRS score sheet preparation and printing; identification of data gaps; and
                          scratchpad capability for note-taking.
                 9   DOI should develop a risk-based method to prioritize sites and apply an
                     approach that ranks sites based on current and future land uses, ecological risks,
                     and tribal factors/cultural considerations.
                     •    DOI sites on Bureau of Indian Affairs land should focus on ecological risks
                          such as food chain contamination, bioaccumulation, and fish
                          consumption/utilization for tribal cultures.
                     •    DOI should consider obtaining site assessment information from States and
                          Tribes regarding sites DOI holds in trust.
                 9   DOI should develop a tracking mechanism for sites DOI sets aside as not
                     requiring cleanup attention. DOI should work with States, Tribes, and
                     communities to stay aware of changing site conditions that warrant
                     reprioritization of already screened sites.




                                                 9

Cost         DOI-OIG Audit Finding:
Estimating   Four DOI bureaus did not adequately support cost estimates for 108 of the 125 (or
             86 percent) site files reviewed. Some bureaus reported estimates that officials could
             not explain. Additionally, for the 125 site files evaluated by the DOI-OIG team, 103
             (or 82 percent) did not have supporting documentation to justify the financial liability
             code selected. As a result, DOI and its bureaus may not have reliable data for
             management purposes or financial reporting.
             Promising Practices:
             9    DOI should create a web-based “cost estimating toolbox” as a one-stop resource
                  of guidance and worksheets for staff to document assumptions. This could
                  include EPA’s information on the costs and environmental liabilities related to
                  mining.
             9    DOI should reevaluate and adjust cost estimates at each stage of the cleanup
                  process. Cost estimating should include flexibility to account for uncertainty in
                  changing site conditions between discovery and actual cleanup. DOI’s cost
                  estimating process should include a feedback loop to adjust the first round of
                  cost estimates.




                                              10 

                                                                                              Appendix A

                               Scope and Methodology

In collaboration with the DOI-OIG, we summarized EPA’s process of discovering, assessing,
and prioritizing hazardous waste sites for cleanup to identify promising practices for DOI’s effort
to inventory hazardous sites on land it manages. We conducted our evaluation of EPA’s
Superfund remedial program (we omitted from our scope processes related to EPA’s emergency
removal program) between April 2004 and December 2004. We performed our evaluation in
accordance with Government Auditing Standards issued by the Comptroller General of the
United States.

Evaluation Methodology

To gain an understanding of EPA’s Superfund site discovery, site assessment and prioritization,
and cost estimating processes, and to identify promising practices for DOI, we reviewed policies
and guidance documents available on EPA’s Superfund website, including:


    Preliminary Assessment and Site Inspection            “Introduction to the HRS” and the “HRS Toolbox”
     Information
    Site Assessment Fact Sheets                           HRS Superscreen and Quickscore
    Quick Reference Guidance “Improving Site              Quick Reference Fact Sheet “The Revised
     Assessment: Abbreviated Preliminary                    Hazardous Ranking System Qs and As”
     Assessments” (October 1999)                            (November 1990)
    Quick Reference Guidance “Improving Site              January 9, 1996 Memorandum on “Remedial
     Assessment: Combined PA/SI Assessments”                Action Priority Setting”
     (October 1999)
    Risk Assessment Task Force Staff Paper                Superfund Hotline Training Module “Introduction
     “An Examination of EPA Risk Assessment                 to: The Superfund Response Process” (updated
     Principles and Practices” (March 2004)                 February 1998)
    Role of the Baseline Risk Assessment in               Superfund Program Implementation Manual:
     Superfund Remedy Selection Decisions                   Fiscal Year 2004/2005 (April 7, 2003)
     (April 22, 1991)
    Overview of the National Risk-Based Priority          Remedial Investigation and Feasibility Study
     Panel                                                  Information
    A Guide to Developing and Documenting                 Fact Sheet “The Role of Cost in the Superfund
     Cost Estimates During the Feasibility Study            Remedy Selection Process” (September 10,
     (July 2000)                                            1996)
    Superfund: Building on the Past, Looking to           Memorandum “Cost Estimating Resources for the
     the Future (“120-Day Study”) (April 22, 2004)          Superfund Program” (June 1, 2004)
    Superfund Reforms Initiative




                                                     11 

We conducted literature searches on EPA and DOI hazardous waste activities and related
promising practices. We reviewed prior audits and evaluations on each agency’s hazardous
waste programs written by our office and the Government Accountability Office, as well as
reports written by:

    Resources for the Future                                    Environmental Law Institute
    National Advisory Council for Environmental                 Association of State and Territorial Solid Waste
     Policy and Technology                                        Management Officials




We interviewed officials from EPA Headquarters and regional offices for policy implementation
information and to identify promising practices for DOI. In Headquarters, we met with:

    Associate Chiefs with EPA’s lead office for managing the Superfund program and for providing regional
     support from site discovery through site prioritization
    Two members, including the Chairperson, of EPA’s National Risk-Based Priority Panel responsible for
     prioritizing new site funding based on the risks posed by sites
    Directors of EPA’s offices responsible for restoration, reuse, enforcement, and compliance at Federal facility
     hazardous waste sites
    Member of EPA’s Environmental Response Team responsible for ecological risk assessment
    Two members of EPA’s National Remedy Review Board that reviews cleanup options, helps control costs,
     and promotes consistent and cost-effective cleanup decisions
    Contract Manager and U.S. Army Corps of Engineers Liaison within EPA’s lead Superfund office
    Staff responsible for science policy within EPA’s lead Superfund office
    Chief overseeing EPA’s automated inventory of hazardous waste sites




To obtain a regional perspective of Superfund implementation and identify practices relevant for
the DOI field staff who conduct hazardous site activities, we interviewed staff in Regions 2, 8, 9,
and 10 responsible for initial site discovery; site assessment and risk assessment; HRS scoring
and the NPL process; and Federal facilities coordination. We judgmentally selected Regions 2,
8, 9, and 10 based on discussions with EPA staff. We also met with one of the co-chairs of
EPA’s National Mining Team, who described the team’s involvement with DOI.

Limitations

We did not comprehensively evaluate EPA’s Superfund program implementation; rather, we
identified useful practices – if implemented effectively – for DOI’s effort to inventory hazardous
waste sites on land the Department manages. Because we could not determine whether the
Superfund processes described in our report work exceptionally well or are widely recognized
over other approaches, we refer to them as promising practices rather than best practices.




                                                         12 

DOI-OIG Work

Concurrent with our evaluation, DOI-OIG staff audited DOI’s processes to identify, track, and
prioritize hazardous sites. DOI-OIG identified and evaluated the policies and procedures used by
DOI and its bureaus to inventory and prioritize hazardous sites. DOI-OIG also conducted field
visits to evaluate supporting documentation for reported financial liability codes and cost
estimates for hazardous sites. DOI-OIG interviewed officials at the Department and bureau
levels, and at field and regional offices. DOI-OIG attempted to reconcile the Department’s list
of contaminated sites to the Federal Agency Hazardous Waste Compliance Docket, maintained
by EPA, to determine whether the Docket contained sites that the bureaus had not reported to the
Department. DOI-OIG conducted its review from February 2004 to March 2005. DOI-OIG
used fiscal 2003 data as the baseline for its review. The scope of DOI-OIG’s audit covered
Federal lands under the management of the Department and excluded physical hazards, currently
operating sanitary landfills, transportation, storing, and handling of hazardous materials, current
operations at Department facilities, and identification of actual or potential contamination on
lands newly acquired or to be acquired.




                                                13 

                                                                                     Appendix B

                      EPA’s Site Discovery Process
EPA has several mechanisms in place to discover new hazardous waste sites. EPA’s
relationships with both State officials and regional Remedial Decision Teams have proven useful
in obtaining new site information. Consistent definitions of “hazardous substances” helps EPA
staff communicate with these groups to obtain information on new sites that might pose a threat
to human health or the environment. EPA extensively screens new sites before including them in
the Agency’s automated inventory and priority list of sites that require further Federal action.
EPA’s screening efforts include coordinating with other EPA and State program offices to
determine their level of awareness and activity at a certain facility. EPA also applies automated
screening tools and templates to assist regional staff in assessing and inspecting sites for further
action. Additionally, regional EPA offices apply innovative approaches to identifying hazardous
waste sites in certain industrial sectors.

Hazardous wastes and substances addressed by EPA possess at least one of the following four
characteristics: ignitability, corrosivity, reactivity, or toxicity. The core of EPA’s process to
assess sites for Federal action includes a system of identification and prioritization that allows
EPA to address the most dangerous sites and releases. Identifying abandoned or uncontrolled
hazardous waste sites represents the first step in the process. EPA identifies sites through a
variety of methods, including reviewing information provided by concerned citizens and records
maintained by State and local agencies, such as facility bankruptcy filings with county tax
assessor’s offices, and insurance maps that show historical site information. Hazardous waste
regulations require facilities to report releases of certain chemicals and provide information
about hazardous substances used at facilities. EPA may discover releases of hazardous
substances through various means, including:

   	   Mandatory notification under CERCLA §103(a) or (c);
   	   CERCLA §104(e) investigations for “information gathering and access” if there is a
        “reasonable basis to believe there may be a release or threat of release of a hazardous
        substance or pollutant or contaminant”;
   	   Required RCRA §3005 and §3010 release notification, which mandates that any person
        generating, transporting, treating, storing, or disposing of hazardous waste notify EPA
        and describe the location, site activities, and hazardous waste handled at the facility;
   	   Inventory efforts or random observation by government agencies;
   	   Formal citizen petitions pursuant to 40 Code of Federal Regulations §300.420(b)(5),
        which reads, “Any person may petition the lead Federal agency to perform a preliminary
        assessment of a release when such person is, or may be, affected by a release of a
        hazardous substance, pollutant, or contaminant. Such petitions shall be addressed to the
        EPA Regional Administrator for the Region in which the release is located, except that
        petitions for preliminary assessments involving Federal facilities should be addressed to
        the head of the appropriate Federal agency”;
       Review of State and Federal records to determine whether facilities fall under other
        environmental programs such as RCRA; and
       Informal community observation and notification.

                                                14 

Among all of these methods, States usually discover and report new site information to EPA.
State hazardous waste site inventory lists have proven helpful for EPA’s site discovery efforts.
EPA regional staff conducts prescreening, often in conjunction with a State agency, to verify the
presence of hazardous waste substances and to evaluate whether an existing EPA or State
program covers the site. According to regional EPA staff, the Agency rarely receives new site
information through informal referrals; rather, those citizens interested in referring a site may
submit a formal petition available on the Agency’s website and included as Example B-1 in this
appendix. For example, Region 10 receives about 3 to 4 citizen petitions a year, although 1
petition can pertain to multiple sites (we noted 1 petition that pertained to 10 sites).
Additionally, regional Remedial Decision Teams meet monthly to discuss emergency removal
sites and often the monthly discussions include new site information. For example, Region 10
uses Remedial Decision Teams to decide how to proceed with a particularly sensitive site after
regional staff internally review State reports on new sites. Region 9 applies an approach similar
to the Remedial Decision Team meetings utilized in Regions 2, 8, and 10. As part of cooperative
agreements, Region 9 staff meet with representatives from States and Tribes at least three times a
year to discuss work plans, emerging high priority sites, and what programs would best address
new sites.

Regions screen new sites to assure that they place only appropriate sites into the Comprehensive
Environmental Response, Compensation, and Liability Information System (CERCLIS), the
Agency's database of sites that may require Federal cleanup action. Pre-CERCLIS screening
varies from Region to Region but typically involves reviewing existing facility files at State
agencies or county health departments, and conducting site visits to visually determine the
proximity of the site to residential population centers and the site’s draining, fencing, and unique
characteristics. Region 2 has found it useful to have its States complete the “NPL Data
Characteristics Form” – a qualitative questionnaire created electronically through HRS
Superscreen (available on EPA’s site assessment web page) and included as Example B-2.
HRS Superscreen provides a user-friendly, Windows-based method to facilitate site inspection
reporting and decision-making. Often, Region 8 staff will collect topsoil samples as part of
pre-CERCLIS screening, and one State in Region 8 prepares a pre-CERCLIS screening report
complete with a site decision-making form, included as Example B-3. In Region 9, States and
Tribes complete pre-CERCLIS screening checklists and submit the checklists to Region 9 staff
as deliverables under cooperative agreements. Two Region 10 States (Oregon and Washington)
complete site screening forms that include strategy recommendations for how best to address the
site, and Oregon also uses a site assessment prioritization system to assess and score site threats.

Pre-CERCLIS screening helps EPA determine whether a site qualifies for a response action
under Superfund and warrants evaluation through the site assessment and priority listing process.
Prior to conducting pre-CERCLIS screening, EPA previously entered all sites – including
emergency removals – into CERCLIS. According to EPA staff, States now attach the stigma
previously associated with the Agency’s priority list with listing sites in CERCLIS and the
Federal Agency Hazardous Waste Compliance Docket. While EPA’s CERCLIS inventory
contains approximately 50,000 sites, roughly 1,500 sites appear on the Agency’s priority list for
Federal action.




                                                 15 

EPA requires that CERCLIS data comply with standards established by the Environmental Data
Standards Council. The Council develops environmental data standards to promote the exchange
of information among EPA, States, and Tribes. The Council creates documented agreements on
representations, formats, and definitions of common data. The Council intends the data
standards to improve the quality and share-ability of environmental data by increasing data
compatibility, improving the consistency and efficiency of data collection, and reducing data
redundancy by providing a “common vocabulary” for all interested stakeholders. EPA requires
that any data submitted to the Agency comply with these standards.

For non-Federal facilities, the site discovery date in CERCLIS represents the date EPA regional
staff complete pre-CERCLIS screening activities and documents the decision that the site
warrants assessment and potential listing and cleanup attention. In addition to CERCLIS data
entry, Region 2 documents new site information in a “Superfund New Site Assignment Form”
(see Example B-4). One Region uses contractors to enter new site information into CERLCIS,
while another has site assessment managers enter initial site discovery information into
CERCLIS. CERCLIS generates a one-page printed decision form that regional reviewers sign,
date, and file. For Federal facilities, the site discovery date represents the date EPA formally
adds the site to the Federal Agency Hazardous Waste Compliance Docket indicating that the site
requires Federal involvement. To document new Federal facility site information, Regions
maintain pre-remedial file rooms that house CERCLIS decision forms, preliminary assessments,
and other documents submitted by Federal facilities, such as required RCRA and CERCLA
release notification forms for those Federal agencies that generate, transport, treat, store, or
dispose of hazardous waste.

EPA continues to discover new sites; however, EPA’s heavy reliance on States for site discovery
information could lead to “blind spots.” To account for this limitation, EPA Regions apply
innovative target- and industry-based approaches to identifying new hazardous waste sites. For
example, Regions 2 and 9 apply target-based approaches where they begin by sampling drinking
water supplies or contaminated groundwater plumes and backtrack to locate the facility or source
of contamination. This unique approach differs from the usual practice of tracking
contamination from the source facility to the point of eventual release. Regions 2 and 8 also
utilize industry-based site discovery programs that focus on certain industrial sectors. For
example, one Region 8 State identifies potential sites by tracking groundwater releases of
volatile organic compounds from the dry cleaning sector. Region 9 has site discovery initiatives
on perchlorate, as well as vapor intrusion into homes from contaminated soils. One Region 10
State reviews lists and maps of impaired waters, applies overlay maps to identify industrial
sectors, conducts sampling, and backtracks to identify sources of contamination.




                                               16 

Example B-1




    17 

                                     Example B-2


“NPL Data Characteristics Form” from HRS Superscreen




                                          18 

Example B-3




    19 

20 

Example B-4




    21 

                                                                                     Appendix C

    EPA’s Site Assessment and Prioritization Process
EPA evaluates the release of hazardous substances from a site through various steps in the
cleanup process. When EPA identifies a site, EPA performs a preliminary assessment to
distinguish between sites that pose little or no threat to human health and the environment and
sites that require further investigation. Preliminary assessments (PAs) and site inspections (SIs)
identify sites qualified to enter the priority listing process and provide the data needed for
scoring according to EPA’s Hazard Ranking System. EPA scores sites based on the likelihood
of release or potential release, the characteristics of site waste, and the people or sensitive
environments affected by the release. EPA uses a panel of experts to evaluate risks at sites on
the Agency’s priority list and to establish funding priorities for new cleanups. Once EPA
designates a site as a priority for Federal action and funding, EPA conducts a remedial
investigation to determine the nature and extent of contamination through sampling analysis and
risk assessment.

EPA’s formal site assessment process begins when the Agency first enters information about a
release or potential release into its national inventory of hazardous waste sites, and continues
through PAs, SIs, removal actions, and other activities. EPA’s site assessment process ends
either when the Agency determines No Further Remedial Action Planned (NFRAP), at which
point site assessment stops and EPA archives site information, or when EPA decides to propose a
site for listing on the National Priorities List (NPL), at which point the site assessment phase
ends and the listing process begins. EPA does not track sites the Agency codes as “NFRAP”;
rather, those sites fall to the responsibility of State agencies, and EPA places the onus on States
to alert EPA to new information that can change the “NFRAP” status. Each of the following
steps helps the Agency assess and prioritize hazardous waste sites. Throughout the process, EPA
uses its community involvement program, as appropriate, to advocate and strengthen early and
meaningful community participation during cleanups.

Preliminary Assessment/Site Inspection (PA/SI)

The PA represents the first phase of the site assessment process following site discovery.
Regions should attempt to complete PAs at non-Federal facility sites within 1 year of site
discovery. Regions usually conduct an abbreviated PA for sites entered into the CERCLIS
inventory via site discovery at which no work has started and, based on limited review, do not
warrant any type of additional activity. PAs consist of limited-scope investigations of readily
available information about a site and its surrounding area. PAs generally include a review of
Federal, State, and local government files, including facility bankruptcy documents, county tax
assessor’s records, permits required under RCRA, insurance maps with historic site information,
and geological and hydrological data. Although not required, the process may include site visits
to observe characteristics such as drainage patterns and proximity to residences, and institutional
controls such as fencing.

According to EPA regional staff, while EPA requires certain information to complete a PA, the
Agency recognizes the need for flexibility in the process to tailor information gathering to site

                                                22 

specific needs. Often, regional EPA staff will conduct an abbreviated preliminary assessment
when regional staffs have enough information to decide whether the site warrants further Federal
action. Abbreviated preliminary assessments use the same information as the conventional PA
approach, but rely on the professional judgment and past site assessment experience of regional
staff to make decisions at earlier stages of the process.

To determine the types of threats the site might pose, EPA staff conduct detailed reviews or SIs.
The SI process provides the data needed to score sites through the Hazard Ranking System
(HRS) and identify potential sites for EPA’s priority list of sites requiring Federal action and
funding. SI investigators typically collect environmental release and potential source samples to
determine the presence or migration of hazardous substances. Investigators conduct SIs in one
stage or two. The first stage, or focused SI, tests hypotheses developed during the PA and can
yield information sufficient to prepare an HRS scoring package. If investigators require further
information to document an HRS score, they move to the second stage and conduct an expanded
SI. EPA encourages Regions to combine PA and SI activities, or conduct integrated
assessments, to reduce costs and repetitive tasks. Region 8 performs integrated assessments on a
case-by-case basis for those sites that pose time-critical threats to nearby populations. Under
cooperative agreements, Region 9 staff collectively work with States and Tribes to decide
whether a site requires further assessment based on any indications that a release could impact
human populations or sensitive environments. Region 9 staff said that Tribal cultural values
often come into play when assessing sites, particularly with new routes of exposure not typically
expected in suburban environments.

To assist the PA and SI efforts at other Federal agencies, EPA plans to issue succinct PA and SI
summary guides specific to Federal facilities in early 2005, as well as launch a web-based
Federal facilities compliance assistance center on hazardous site cleanup. While the PA and SI
guides will not replace specific statutory requirements, they could serve as one-stop guides to
assist other Federal agencies and help focus their site activities. Also, EPA conducts an annual
national site assessment symposium as a forum for EPA, States, Tribes, and other Federal
agencies to discuss recent and pending changes in legislation, funding, policies, and guidance.
Speakers representing a broad site assessment spectrum share ideas and expertise on how to
address evolving site assessment needs.

HRS Scoring

EPA applies information collected during the PA/SI process to calculate an HRS score, and EPA
uses HRS scoring as the principal mechanism to place uncontrolled waste sites on its priority list
for funding and action. The HRS consists of a numerically based screening system to assess the
relative potential of sites to pose a threat to human health or the environment. The HRS assigns
each site a score ranging from 0 to100 based on: the likelihood that a site has released or has the
potential to release contaminants into the environment; the characteristics of the waste; and the
people or sensitive environments affected by the release. Though not a risk assessment tool, the
HRS uses a structured approach to assign numerical values to risk-based factors and conditions.
EPA scores four pathways under the HRS:




                                                23 

   1.	   Groundwater migration (drinking water);
   2.	   Surface water migration (drinking water, human food chain, sensitive environments);
   3.	   Soil exposure (resident population, nearby population, sensitive environments); and
   4.	   Air migration (population, sensitive environments).

After calculating scores for one or more pathways, EPA combines the scores into an overall site
score. Sites with an HRS score of 28.5 or greater are eligible for EPA’s priority list of sites
requiring Federal action. Site teams may use electronic scoring systems, such as HRS
Superscreen and Quickscore, to calculate scores. Both systems provide user-friendly, electronic
methods of documenting site scores, minimizing mathematical scoring errors, and facilitating
decision-making. HRS Superscreen allows users to: enter and evaluate site-specific information,
including sampling data, waste quantities, physical parameters, and target data; enter descriptive
narrative text and reference citations; and select specific HRS factor values. Similar key
functions in Quickscore include: pathway and site score calculations; HRS score sheet
preparation and printing; easy identification of data gaps in a conceptual site model; and
scratchpad capability for note-taking.

If all HRS pathways score low, the site scores low. However, the site can score relatively high
even if only one pathway scores high. This demonstrates an important consideration for HRS
scoring because some extremely dangerous sites pose threats through only one pathway. Also,
HRS scores do not determine funding priorities because the information collected to develop
HRS scores cannot sufficiently determine either the extent of contamination or the appropriate
cleanup response for a particular site. Furthermore, the sites with the highest HRS scores do not
necessarily come to EPA's attention first – this would require stopping work at sites with already
underway cleanup actions. EPA relies on more detailed studies in the Remedial
Investigation/Feasibility Study (RI/FS) process that typically follows site listing.

Remedial Investigation/Feasibility Study (RI/FS)

The RI/FS phase determines the nature and extent of contamination, and EPA performs an RI/FS
after designating a site as a priority for Federal funding and action. The RI serves as the
mechanism for collecting data to:

   •	    Characterize site conditions;
   •	    Determine the nature of the waste;
   •	    Assess risk to human health and the environment; and
   •	    Conduct testing to evaluate the potential performance and cost of the treatment 

         technologies under consideration. 


The FS serves as the mechanism for the development, screening, and detailed evaluation of
alternative cleanup actions. EPA conducts the RI/FS process concurrently – data collected in the
RI influence the development of cleanup alternatives in the FS, which in turn affects the scope of
additional studies and field investigations. According to EPA, this phased approach encourages
the continual scoping of site characterization, minimizes the collection of unnecessary data, and
maximizes data quality. The RI/FS process includes the following phases: scoping, site



                                                 24 

characterization, development and screening of cleanup options, treatability investigations, and
detailed analysis.

       Scoping

       Scoping represents the initial planning phase of the RI/FS process, and EPA refines many
       of the planning steps begun during the scoping in later phases of the RI/FS. Scoping
       activities typically begin with the collection of existing site data, including data from
       previous investigations such as the PA/SI. On the basis of this information, EPA
       undertakes site management planning to: preliminarily identify boundaries of the study
       area; identify likely cleanup objectives and whether interim actions may be necessary or
       appropriate; and establish whether to address the site as one of several separate operable
       units. Once EPA agrees on an overall management strategy, EPA plans the RI/FS for a
       specific operable unit or the site as a whole. Typical scoping activities include: initiating
       the identification and discussion of potential Applicable or Relevant and Appropriate
       Requirements with the support agency; determining the types of decisions to make and
       the data needed to support these decisions; assembling a technical advisory committee to
       assist in activities, serve as a review board for important deliverables, and monitor
       progress during the study; and preparing the work plan, sampling and analysis plan,
       health and safety plan, and community relations plan.

       Site Characterization

       EPA initiates field sampling and laboratory analysis during the site characterization phase
       of the RI/FS. Preliminary site characterization summaries provide the lead agency with
       information early in the process before preparation of the full RI report. The summary
       helps determine the feasibility of potential technologies and assists both the lead and
       support agencies with the initial identification of applicable or relevant and appropriate
       requirements.

       According to regional EPA staff, the Agency’s site prioritization follows a risk-based
       process. EPA applies its Risk Assessment Guidance to develop electronic templates of
       standard risk assessment data reporting tables that provide clear, consistent, and
       transparent risk data presentations. The electronically transferred tables provide the
       summary-level risk data that EPA staff must enter into its automated inventory of
       hazardous waste sites. EPA requires a baseline risk assessment for all listed sites that
       identifies the existing or potential risks that sites may pose to human health and the
       environment.

       Three types of risks may require site cleanups: human health cancer risks; human health
       non-cancer risks; or ecological risks. Because the baseline risk assessment identifies the
       primary health and environmental threats at a site, it also provides valuable input to the
       development and evaluation of alternatives during the FS. EPA uses the 1x10-6 (one in a
       million) to 1x10-4 (1 in ten thousand) cancer risk range as a “target range” to manage
       cleanup risks and as an acceptable risk range for cleanup levels. For human health
       threats, where the baseline risk assessment indicates that the lifetime cancer risk range to


                                                25 

        an individual for either current or future land use exceeds 1x10-4, the site generally
        warrants further Federal action. Once EPA decides to commence cleanup action, the
        Agency has expressed a preference for cleanups achieving the more protective end of the
        risk range (i.e., 1x10-6). Site cleanup must also protect against non-cancer risks or
        threats, and generally should not result in a Hazard Index1 greater than one. To justify
        site action based upon ecological concerns, an ecological risk assessment must establish
        that an actual or potential ecological threat exists at a site. Ecological risk assessments
        can have their greatest influence on risk management at a site in the evaluation and
        selection of cleanup options.

        Development and Screening of Cleanup Options

        This phase usually begins during scoping when EPA may first identify likely cleanup
        scenarios. Developing cleanup options requires:

             •   Identifying objectives;
             •   Identifying potential treatment technologies that will satisfy the objectives;
             •   Screening technologies based on effectiveness, implementability, and cost; and
             •   Assembling technologies into alternatives for the site or operable unit.

        EPA can develop cleanup options to address a contaminated medium, a specific area of
        the site, or the entire site. Once EPA develops potential cleanup alternatives, the Agency
        screens certain options to reduce the number of alternatives for analysis. EPA usually
        conducts the screening process on a general basis and with limited resources because of
        the lack of complete information necessary to fully evaluate cleanup options at this point
        in the process. The FS evaluates the risks in the absence of cleanup actions to provide a
        baseline for comparison with other alternatives.

        Treatability Investigations

        EPA conducts treatability investigations primarily to: provide sufficient data to allow for
        the full development and evaluation of treatment alternatives during the detailed analysis
        phase; support the design of selected cleanup options; and reduce cost and performance
        uncertainties for treatment alternatives to acceptable levels so that EPA can select an
        option.

        Detailed Analysis

        During this phase, EPA evaluates cleanup alternatives with respect to nine criteria that
        the Agency developed to address statutory requirements. EPA considers the first two
        criteria as “threshold” criteria; the next five as “balancing” criteria; and the last two as
        “modifying” criteria. Specifically:

1
 EPA defines the Hazard Index as the ratio of the exposure level to the referenced, acceptable daily long-term dose
from exposure to contaminants at the site.



                                                         26 

                                Nine Criteria for Evaluating Cleanup Alternatives

        Threshold          1. Overall protection of human health and the environment
        Criteria           2. Compliance with applicable or relevant and appropriate requirements

        Balancing          3.   Long-term effectiveness and permanence
        Criteria           4.   Reduction of toxicity, mobility, or volume
                           5.   Short-term effectiveness
                           6.   Implementability
                           7.   Cost

        Modifying          8. State acceptance
        Criteria           9. Community acceptance



       EPA analyzes cleanup alternatives individually against each criterion and then compares
       each alternative against one another to determine their respective strengths and
       weaknesses. EPA also uses its National Remedy Review Board, comprised of
       Headquarters and regional staff, to review cleanup options to ensure consistency with
       hazardous waste regulations. The results of this process help the Agency select an
       appropriate cleanup option.

Record of Decision

EPA creates the Record of Decision from information generated during the RI/FS, and the
Record of Decision functions as a public document that explains which cleanup options EPA
selected for a site. The Record of Decision includes a table listing the final cleanup goals and the
corresponding risk level for each chemical of concern.

Design and Implementation of Cleanup Action

Based on specifications described in the Record of Decision, EPA designs the technical
specifications for cleanup options and technologies during this phase, followed by the actual
construction or implementation phase of site cleanup.

Designating Priority Sites for Federal Funding and Action

EPA designates priority sites for Federal funding and action upon completion of HRS scoring
and after EPA addresses public comments on proposed sites to ensure that EPA allocates scarce
resources to the sites posing the most risk to human health and the environment. EPA’s National
Risk-Based Priority Panel evaluates the risk posed at listed sites to establish funding priorities for
new cleanup construction projects. This system allows for an evaluation of projects based on:
protection of human health; protection from significant environmental threats; and protection
against potential human health or environmental threats based upon current site conditions. The
panel meets during the course of the year as needed to prioritize new projects. EPA regional
staff complete and submit site forms to the Priority Panel for scoring, and Example C-1 includes
a copy of a blank Priority Panel form.



                                                    27 

The Priority Panel applies five criteria and associated weighting factors to classify threats that
contaminants may pose at a site. The Panel then applies the criteria and associated weighting
factors to compare sites based on common criteria. The five criteria are:

             Five Criteria for Classifying Threats
        1.   Risks to human population exposed
        2.   Contaminant stability
        3.   Contaminant characteristics
        4.   Threat to a significant environment
        5.   Program management considerations



The Panel ranks each criterion on a scale of one to five. The highest score for any criterion is
five, representing a current risk-current exposure scenario posing risk to human health and the
environment. The lowest score for any factor is one, representing a future risk-future exposure.
EPA multiplies the raw score by the weight factor for each criterion as follows, with a maximum
possible score of 100:


                                                                   Raw Score            Weight    = Maximum
                                Criteria                             Range          x   Factor   Total Score *

        Risk to human population exposed: population size,            1-5           x     5           25
        proximity to contaminants, and likelihood of exposure.
        Stability: mobility of contaminants, site structure, and      1-5           x     5           25
        effectiveness of any institutional or physical controls.
        Contaminant characteristics: concentration, toxicity,         1-5           x     3           15
        and volume.
        Threat to a significant environment: endangered               1-5           x     3           15
        species or their critical habitats, and sensitive
        environmental areas.
        Program management considerations: innovative                 1-5           x     4           20
        technologies, cost delays, high profile projects,
        environmental justice, State involvement, and
        Brownfields/economic redevelopment.

             Maximum total project score                                                             100

        * We multiplied the weight factor by the high end of the raw score range.




                                                         28 

                                               Exhibit C-1

                             Superfund Response Action Priority Form

Regional Site Priority:                          Region: _________________________________               

Site Name:                                 

CERCLIS ID:                                      NPL Status: ______________________________ 



Site Location
City: ____________________________               State: ___________________________________
Cong. District: ____________________


Action
___Remedial, or                                     OU#: 
                 .
___Time Critical Removal (NPL/Non-NPL) 

___Non-Time Critical Removal (NPL/Non-NPL) 

First, Subsequent, or Final Action for site: __________________________________________ 

If this is a final action, will this result in construction completion for site (Yes/No)? 



Site Description
(size, volume of waste, current and future land uses of the site and land adjacent to the site, etc.):


Response Action Summary

1) 	   Describe briefly, site activities conducted in the past or currently underway.

2) 	   Specifically identify the discrete activities to be considered by this panel evaluation along
       with associated cost and projected schedule.

3) 	   What are the projected additional activities that will result in this site reaching
       construction completion? What is the estimated cost of these additional activities?


Cost of Proposed Response Action: $____________________
(If the response action exceeds $10 million, consultation with the Regional Center Director to
discuss alternatives should precede ranking by panel. Deviation from project budget, resulting in
the exceedance of the $10 million limit, requires HQ consultation.)

Planned FY 2002 and FY 2003 Needs (If large dollar project, please provide a quarterly
forecast): $____________________ (Note: State match = 10%)




                                                   29 

Readiness Criteria:

Date State Superfund Contract or State Cooperative Agreement will be signed (Month)?

If non-time critical, is State cost sharing (provide details)?

        State match = 10%

If Remedial Action when will Remedial Design be 95% complete (Month)?

When will Region be able to obligate money to the site?

Estimate when on-site construction activities will begin ?

I. 	    Principal Contaminants (Please provide average and high concentrations)
                                                       Concentration
        Contaminant        Media                (Average)            (High)
1)                                                                                         .
2)                                                                                         .
3)      ___________                                                                        .
4)      ___________                                                                        .

Media: (AR) Air, (SL) Soil, (ST) Sediment, (GW) Ground Water, (SW) Surface Water


II.	    Site/Contaminant Stability (Describe the means/likelihood that contamination could
        impact other areas/media given current containment):


III.	   Summarize Human Exposures/Risks (Describe the Exposure Scenario(s) driving the
        risk and remedy (Include: current/future, on-site/off-site, media, exposure route,
        receptor):

        Estimate the number of people reasonably anticipated to be exposed in the absence of any
        future EPA action for each medium for the following time frames:

        Medium                 < 2yrs. 	                 < 10 yrs.        > 10 yrs.
                               _____________             _____________    ______________

        Discuss the likelihood that the above exposures will occur?


        Medium                 < 2yrs. 	                 < 10 yrs.        > 10 yrs.
                               _____________             _____________    ______________

        Discuss the likelihood that the above exposures will occur?


                                                  30 

IV.    Explain any Ecological Risks/Impacts

Describe any observed or predicted adverse impacts on ecological receptors including their
ecological significance and likelihood of occurring, size of the impacted area.

Would natural recovery occur if no action was taken? If so, estimate how long this would take.


V.     Programmatic Considerations

Describe the degree to which the community accepts the response action:

Describe the degree to which the State accepts the response action:

Describe other programmatic considerations (e.g., natural resource damage claim pending,
Brownfields site, uses an innovative technology, construction completion, economic
redevelopment, environmental justice, etc.):




                                               31 

                                                                                      Appendix D

                     EPA’s Cost Estimating Process
Recognizing that unique and changing site circumstances require flexibility in estimating costs
for cleanup, EPA estimates costs throughout the Agency's process of prioritizing sites for Federal
action, and costs change as projects move forward and more definitive scopes emerge. EPA
estimates technical support and supply costs for all phases of cleanups through Independent
Government Cost Estimates (IGCEs). EPA estimates costs as one of nine criteria to choose
suitable cleanup options. After selecting a cleanup option, EPA performs a detailed construction
cost estimate. EPA's guidance documents address cost estimates of cleanup options developed
during site investigations, assist project managers with the preparation of assignment-specific
IGCEs, and provide cost estimating resources including a web-based “cost-estimating toolbox.”
Regional project managers do not document historic project costs; rather, they estimate initial
costs and ask other prior and current site teams about their cost experiences.

EPA estimates costs throughout the cleanup process. EPA has recently begun to invest more
money in the study and design phases of cleanup to develop more accurate cost estimates earlier
in the process. Very little cost estimating occurs during the site discovery phase, and the cost
estimating that occurs during site discovery assists EPA staff with site characterization. EPA’s
actual cost estimating process begins during the Remedial Investigation/Feasibility Study
(RI/FS) phase after EPA adds a site to its prioritized list for Federal action but prior to actual
cleanup. For most cost estimates developed during this phase, EPA relies on anecdotal and
empirical data from past sites. According to the National Advisory Council for Environmental
Policy and Technology, accurate cleanup estimates are difficult to predict because EPA only has
cost information for sites or portions of sites where EPA pays for cleanups using program funds.
Potentially responsible parties are not obligated to disclose the amount they spend on cleanup.

According to EPA projections, costs really begin to narrow as EPA better characterizes the site
(which reduces uncertainty) and designs its cleanup process. EPA uses cost estimates developed
while evaluating and comparing cleanup alternatives to select a suitable option, not for
establishing project budgets or negotiating enforcement settlements. EPA begins tracking costs
once the Agency selects a cleanup option so as not to prejudice the selection process.

When selecting the most suitable cleanup option for a specific site, EPA uses screening-level
cost estimates to screen out disproportionately expensive alternatives in the scoping phase and to
help determine what alternatives to retain for detailed analysis. The screening process evaluates
cleanup alternatives with respect to their effectiveness, implementability, and cost, and EPA does
not carry forward higher cost alternatives. The basis for a screening-level cost estimate can
include a variety of sources, such as cost curves, generic unit costs, vendor information, standard
cost estimating guides, historical cost data, and estimates for similar projects, as modified for the
specific site. EPA considers both capital and operation and maintenance costs, where
appropriate, at the screening level. EPA screens out alternatives if they: (1) provide
effectiveness similar to that of another alternative by employing a similar method of treatment or
engineering control, but at greater cost; or (2) have costs that are grossly excessive compared to
their overall effectiveness. After screening alternatives, EPA conducts extensive investigations

                                                 32

to provide sufficient data to fully develop and evaluate alternatives during the next and final
stage of selecting a cleanup option.

The detailed analysis that follows supports the design of selected alternatives, helps reduce cost
and performance uncertainties for cleanup alternatives to acceptable levels, and aids EPA’s
selection of cost-effective cleanup options. EPA evaluates cleanup alternatives in detail with
respect to the aforementioned nine criteria2 that the Agency developed to address the statutory
requirements and preferences of the program. Cost functions as one of five “balancing” criteria
used to assess cleanup alternatives. EPA analyzes the cleanup alternatives individually against
each criterion and then compares each alternative against one another to determine their
respective strengths and weaknesses. EPA evaluates cost along with the other “balancing”
criteria in determining which cleanup option represents the practicable extent to which EPA can
apply permanent treatment solutions or resource recovery technologies at the site. While EPA
balances the reasonableness of the cost when evaluating cleanup options, cost does not
predominate over other factors, such as long-term effectiveness and permanence. EPA’s
National Remedy Review Board helps review cleanup options to control response costs and
promote consistent and cost-effective decisions.

The accuracy of potential cleanup option cost estimates increase as sites move through EPA’s
prioritization process, with the detailed analysis phase achieving a greater level of accuracy than
screen-level estimates (see illustration that follows, which is Exhibit 2-3 in EPA’s “A Guide to
Developing and Documenting Cost Estimates During the Feasibility Study). EPA estimates a
+50% to -30% accuracy rate for cost estimates performed during the Agency’s detailed analysis
of cleanup alternatives. Once EPA completes the final cleanup design, the accuracy range of the
cost estimate narrows to a +15% to -10% range as costs still change along the tail end of the
process.




2
  EPA evaluates cleanup options with respect to: (1) overall protection of human health and the environment;
(2) compliance with applicable or relevant and appropriate requirements; (3) long-term effectiveness and
permanence; (4) reduction of toxicity, mobility, or volume; (5) short-term effectiveness; (6) implementability;
(7) cost; (8) State acceptance; and (9) community acceptance.



                                                         33

                                                                                       From:
                                                                                     A Guide to
                                                                                  Developing and
                                                                                 Documenting Cost
                                                                                 Estimates During
                                                                                   the Feasibility
                                                                                  Study (EPA 540-
                                                                                     R-00-002)
                                                                                    (July 2000).




When estimating cleanup option costs, EPA estimates technical and contractor costs, as well as
construction costs necessary to implement the selected option. First, EPA estimates the costs of
technical support through an IGCE conducted in-house by EPA staff for each work assignment at
a site. Work assignments represent a specific step, or several steps, in EPA’s site prioritization
process, such as initial assessment and inspection following site discovery, or work assignments
to prepare remedial designs for cleanup actions. An IGCE includes a detailed estimate of the
cost to the government for services and/or supplies typically acquired from contractors for the
specific work assignment. The main components of IGCEs include costs for labor, travel,
subcontracts, special equipment, and general and administrative costs. The estimate must
represent the government’s own in-house estimate based upon information specific to the work
at hand, and the estimate can include use of historical cost data from similar projects. The IGCE
should represent a “fair and reasonable” cost of doing the work, and the IGCE provides the work
assignment manager with information about how much it will cost for a contractor to complete a
technical assignment. Since most EPA Regions lack in-house cost estimators, EPA issued a
memorandum in June 2004 to assist work assignment managers in preparing IGCEs. EPA also
provides regional staff an Internet-based “Cost Estimating Toolbox” that includes guidance
documents and worksheets to help project managers prepare site-specific IGCEs and document
assumptions made in preparing these estimates.

EPA conducts the second type of cost estimate after the Agency selects a cleanup option that
meets statutory and regulatory requirements. EPA employs outside contractors to prepare
construction cost estimates, or detailed estimates of the cost to construct the selected cleanup
action. Contractors base construction cost estimates on the type and quantities of labor,


                                                 34

equipment, and materials required to perform the work. RS Means Cost Guides construction
cost manuals provide useful information. Means data often serves as the standard for
construction costs both in the private sector and throughout government, including such agencies
as the Federal Housing Administration, the Department of Defense, and the General Services
Administration. EPA staff include contractors’ construction cost estimates in the IGCE for the
cleanup action work assignment, which follows the completion of the design of the chosen
cleanup option. EPA’s Guidance on Preparing Independent Cost Estimates states that
contractors should not use estimates developed during the evaluation of cleanup alternatives
(with a typical expected accuracy range of +50% to -30%) for construction cost estimates.
Third-party contractors often review construction cost estimates. EPA recommends that project
managers obtain third-party review of cost estimates prior to advertising for bids, and that the
third-party reviewer consists of a qualified cost estimator employed by the U.S. Army Corps of
Engineers. EPA documents each cost estimate for the different cleanup phases in CERCLIS.
While CERCLIS documentation of cost estimates provides an appropriate audit trail, some EPA
staff believe it unnecessary to document every cost-related nuance.

The Superfund 120-Day Study recommended that EPA prepare and distribute a “cost cookbook”
describing frequent construction tasks and estimates of the hours needed to complete the tasks to
help regional staff prepare cost estimates. This “cookbook” could include both good and bad
examples and experiences from Regions. Additionally, the Government Accountability Office
has recommended that EPA maintain data on actual costs of contracted work on a web-based
tool accessible by cost estimating staff. The Government Accountability Office also noted the
need for Federal agencies to collect detailed site-specific data that includes both current and
historical task and cost information, and that Federal agencies utilize co-located agencies with
cost estimating expertise for assistance with cost estimating. EPA participates in a Cost
Estimating Workgroup presently composed of members from the U.S. Army, U.S. Air Force,
U.S. Navy, National Aeronautics and Space Administration, and Department of Energy. All
agencies in the Workgroup, with the exception of EPA, have in-house cost estimating expertise.

EPA-OIG issued a 2003 report, “Implementation, Information, and Statutory Obstacles Impede
Achievement of Environmental Results from EPA’s National Hardrock Mining Framework”
(Report No. 2003-P-00010; August 7, 2003) stating that EPA does not have current, accurate
data on the extent of financial and environmental challenges posed by hardrock mining. EPA’s
response to the report included existing sources of information on the environmental impacts
from mining such as: (1) environmental impact data on priority mine sites; (2) updated mining
impact data in Land Disposal Restriction Phase IV technical background documents;
(3) characterization of mining impacted waters when issuing mine site National Pollutant
Discharge Elimination System permits; (4) evaluation of the potential for adverse environmental
impacts during review of mine site Environmental Impact Statements; (5) characterization of
radiological impacts of mining on Navajo lands; and (6) information on environmental releases
from mine sites through the Toxics Release Inventory program. Each source could help
determine the environmental liabilities of hardrock mine sites for financial statement purposes.
Other documents that can assist in assessing the costs, liabilities, and environmental impacts of
mining include EPA’s Abandoned Mine Lands website, EPA’s Publications on Mining Waste
Management in Indian Country, and the Agency’s Abandoned Mine Site Characterization and
Cleanup Handbook.


                                               35

                                                                             Appendix E

                                  Distribution

Environmental Protection Agency

      Office of the Administrator
      Acting Assistant Administrator for Solid Waste and Emergency Response
      Deputy Assistant Administrator for Solid Waste and Emergency Response
      Agency Followup Official (the CFO)
      Agency Followup Coordinator
      General Counsel, Office of General Counsel
      Audit Followup Coordinator, Office of Solid Waste and Emergency Response
      Associate Administrator for Congressional and Intergovernmental Relations
      Associate Administrator for Public Affairs
      Director, Office of Regional Operations
      Director, Office of Superfund Remediation Technology Innovation
      Deputy Director, Office of Superfund Remediation Technology Innovation
      Regional Administrators
      Inspector General


Department of the Interior

      Inspector General




                                           36

